No. _______
IN THE

Supreme Court of the United States
BRIGHAM AND WOMEN’S HOSPITAL, INC. AND INVESTORS BIO-TECH, L.P.,
Applicants,
v.
PERRIGO COMPANY AND L. PERRIGO COMPANY,
Respondents.
APPENDIX
A.

02/28/2019 United States Court of Appeals for the Federal Circuit Decision

B.

05/02/2019 United States Court of Appeals for the Federal Circuit Order
Denying Petition for Panel Rehearing and Rehearing En Banc

C.

08/02/2017 United States Court of Appeals for the Federal Circuit Order
Denying Motion for Reconsideration of Applicants’ Motion to
Dismiss Appeal for Lack of Jurisdiction

Appendix A

Case: 17-1950

Document: 112

Page: 1

Filed: 02/28/2019

NOTE: This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

BRIGHAM AND WOMEN'S HOSPITAL, INC.,
INVESTORS BIO-TECH, L.P.,
Plaintiffs-Cross-Appellants
v.
PERRIGO COMPANY, L. PERRIGO COMPANY,
Defendants-Appellants
______________________
2017-1950, 2017-2021, 2017-2555, 2018-1243
______________________
Appeals from the United States District Court for the
District of Massachusetts in No. 1:13-cv-11640-RWZ,
Judge Rya W. Zobel.
______________________
Decided: February 28, 2019
______________________
JAMES M. BOLLINGER, Troutman Sanders LLP, New
York, NY, argued for plaintiffs-cross-appellants. Also represented by TIMOTHY P. HEATON, PHOENIX S. PAK, GERALD
EAMES PORTER; LINDSAY MITCHELL HENNER, DOUGLAS
SALYERS, Atlanta, GA.
JEFFREY R. GARGANO, Morgan, Lewis & Bockius LLP,
Chicago, IL, argued for defendants-appellants.
Also

Case: 17-1950

2

Document: 112

Page: 2

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

represented by PETER M. SIAVELIS, Barnes & Thornburg
LLP, Chicago, IL.
______________________
Before LOURIE, O’MALLEY, and STOLL, Circuit Judges.
LOURIE, Circuit Judge.
Perrigo Company and L. Perrigo Company (collectively, “Perrigo”) appeal from the order of the U.S. District
Court for the District of Massachusetts denying judgment
of invalidity as a matter of law of U.S. Patent 5,229,137
(the “’137 patent”) on the basis of anticipation and obviousness. Brigham & Women’s Hosp., Inc. v. Perrigo Co., 280
F. Supp. 3d 192, 205–06 (D. M ass. 2017) (“Decision”).
Brigham and Women’s Hospital, Inc. and Investors BioTech, L.P. (collectively, “Brigham”) cross-appeal from the
same order granting judgment of noninfringement as a
matter of law. Id. at 205. Because the district court did
not err in its judgment of noninfringement, we affirm and
do not reach the remaining issues.
I. BACKGROUND
Brigham’s ’137 patent is directed to a method for treating episodic heartburn by coadministering two known
types of heartburn medications, H2-receptor antagonists
(known as H2-blockers) and antacids. Antacids were
known to provide fast but momentary relief from heartburn; in contrast, H2-blockers were known to provide
slower but longer-lasting relief. Critically, the method of
treatment as claimed requires that coadministering an
antacid and H2-blocker achieves a certain clinical result:
“immediate and sustained relief from pain, discomfort
and/or symptoms associated with episodic heartburn.” ’137
patent col. 7 ll. 23–25 (emphasis added). The dispositive
issue on appeal is whether Perrigo’s product meets the “immediate and sustained relief” limitation.

Case: 17-1950

Document: 112

Page: 3

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

3

A.
Claim 1 of the ’137 patent is the sole independent claim
asserted by Brigham and reads as follows:
1. A method of providing immediate and sustained
relief from pain, discomfort and/or symptoms associated with episodic heartburn in a human, said
method comprising:
orally administering to a human together or substantially together an antacid in an amount effective to substantially neutralize gastric acid and a
histamine H2-receptor antagonist in an amount effective to substantially inhibit or block gastric acid
secretion for providing the human with immediate
and sustained relief from pain, discomfort and/or
symptoms associated with episodic heartburn, the
immediate and sustained relief provided lasting
longer in duration than when the human is orally
treated with only the antacid and the immediate
and sustained relief provided being faster than and
lasting at least about as long in duration as when
the human is orally treated with only the histamine H2-receptor antagonist.
Id. col. 7 ll. 23–42 (emphasis added). The specification defines “immediate and sustained relief,” disclosing:
It should therefore be appreciated that by the term
“immediate and sustained relief,” it means herein
immediate, temporary and sustained relief which
starts within about 5-10 minutes following ingestion of the active ingredients and continues and remains constant for at least about 4-6 hours after
ingestion of the active ingredients; the actual ingredients being an antacid and a histamine H2-receptor antagonist.
Id. col. 3 ll. 22–29 (emphasis added).

Case: 17-1950

4

Document: 112

Page: 4

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

B.
The ’137 patent was filed on M ay 6, 1992, issued in
1993, and expired on M ay 6, 2012. Brigham exclusively
licensed the patent in 1996 to Johnson & Johnson Merck
Consumer Pharmaceuticals (“J&J”), also giving J&J the
right to pursue any infringement claims. In December
2004, Perrigo sent Brigham a Paragraph IV notice letter
informing Brigham that it had submitted an Abbreviated
New Drug Application (“ANDA”) to market a combination
H2-blocker/antacid tablet prior to the expiration of the ’137
patent, and Brigham relayed this information to J&J soon
thereafter. J&J declined to assert the ’137 patent against
Perrigo but did sue on a different patent. Perrigo prevailed
and then launched its generic product in 2008. Several
years later, in 2013, Brigham brought the present suit accusing Perrigo’s generic product of infringing the ’137 patent’s independent claim 1 and dependent claims 4, 5, 6, 7,
and 12. Perrigo counterclaimed, asserting that the ’137 patent was invalid as anticipated and obvious.
At claim construction, the district court construed the
term “immediate and sustained relief” to mean “relief obtained from pain, discomfort and/or symptoms associated
with episodic heartburn which starts within about 5–10
minutes following ingestion of the active ingredients and
continues for at least about 4–6 hours.” J.A. 1380–82; Decision, 280 F. Supp. 3d at 200.
The parties proceeded to trial. A key dispute was
whether Perrigo’s generic product provided immediate relief as defined by the ’137 patent. The main evidence regarding this limitation came from clinical data
underpinning J&J’s branded H2-blocker/antacid product,
Pepcid Complete®. Brigham argued that the clinical data
demonstrated that Pepcid Complete® provides immediate
relief, and since Perrigo’s generic product has the same active ingredients and dosages as Pepcid Complete®, Perrigo’s generic product must also provide immediate relief.

Case: 17-1950

Document: 112

Page: 5

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

5

The clinical data came from three studies presented in
the New Drug Application (“NDA”) for Pepcid Complete®.
The first, Study 98, measured 23 qualifying patients’
esophageal and stomach pH levels after administering
Pepcid Complete® and compared changes in these pH values to controls (an antacid or H2-blocker alone, or a placebo). Undisputedly, lower (more acidic) esophageal pH
may correspond to episodic heartburn, which results from
reflux of stomach acid into the esophagus that can cause
pain associated with episodic heartburn. In the study,
“[a]n episode of acidic reflux was counted as a drop from pH
5 or more to 4 or below . . . .” J.A. 7044. The study was
designed to show that Pepcid Complete® would raise esophageal pH faster than an H2-blocker alone and comparably
fast to an antacid alone.
Although the NDA’s description of Study 98 does not
directly state whether Pepcid Complete® provided symptomatic relief from episodic heartburn starting within about
5–10 minutes, as required by claim 1, the NDA does include
a figure of the patients’ mean esophageal pH measured
over one minute intervals before and after administration
of an antacid, P epcid Complete® (“FACT”), an H2-blocker
(“famotidine”), or a placebo. We reproduce this figure—
Figure 7—below:

Case: 17-1950

6

Document: 112

Page: 6

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

J.A. 7044.
At trial, Brigham’s fact and expert witness and the inventor of the ’137 patent, Dr. M. Michael Wolfe, testified
concerning Figure 7. He opined that “the antacid, whether
it was in the combination or by itself, the pH rapidly rose
in the esophagus, and it persisted.” J.A. 7721. With respect to the claimed immediate relief from episodic heartburn, Dr. Wolfe further attested that “the increase in pH is
what we’re aiming for. It’s mopping up of the acid that’s
present there. If you mop it up, it’s going to relieve symptom; it’s going to start to relieve symptoms fairly quickly.”
Id.
In addition to the data from Figure 7, Study 98 also
reported the number and duration of esophageal reflux episodes that occurred in the hour after administration of the
drugs. On average, patients experienced between 2 and 5
esophageal reflux episodes over the measurement period.
In addition to the pH study, the NDA included two
symptom relief studies, Studies 110 and 127. Study 110

Case: 17-1950

Document: 112

Page: 7

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

7

measured “adequate relief for onset of effect within 2 hours,
and for duration of effect the number of episodes of heartburn adequately relieved for at least 7 hours.” J.A. 7067.
Adequate relief from heartburn, as determined by a patient’s own assessment, was first measured fifteen minutes
after administration of one of the drugs listed above. Results are shown in the table reproduced below:

J.A. 7068.
Study 127 was similar to Study 110. It also measured
“adequate relief” beginning fifteen minutes after administration. Table 8, reproduced below, displays the results:

J.A. 6999.
At trial, Dr. Wolfe testified that the parameter measured in Studies 110 and 127—adequate relief at 15
minutes—would “correlate to immediate relief” within 5–
10 minutes, but he admitted that the two parameters were
different. J.A. 7847–48.

Case: 17-1950

8

Document: 112

Page: 8

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

The jury returned a verdict finding that the asserted
claims of the ’137 patent were not invalid, that Perrigo’s
generic product infringed each asserted claim, and that
Perrigo’s infringement was willful. The jury awarded
Brigham damages of about $10 million. The district court
entered judgment consistent with the verdict on December
19, 2016, but without specifying damages or resolving
Brigham’s claim for enhanced damages. J.A. 8739.
C.
Several days after the judgment, on December 23,
2016, both parties jointly requested the district court to extend various deadlines for filing post-trial motions. The
joint request suggested a deadline for Perrigo’s motions for
judgment as a matter of law (“JMOL”) of January 24, 2017.
The court granted the extensions in full.
Perrigo then moved for JMOL of noninfringement and
invalidity on the date of the revised deadline. Brigham also
then moved for enhanced damages. Additionally, in
Brigham’s opposition to Perrigo’s JMOL motions, Brigham
contended that Perrigo’s motions were untimely under
Rule 50(b). Soon afterwards, in February 2017, Perrigo noticed an appeal from the district court’s December 19 judgment.
Several months later, the district court resolved the
parties’ pending motions. Brigham & Women’s Hosp., Inc.
v. Perrigo Co., 251 F. Supp. 3d 285 (D. Mass. 2017) (“April
Decision”). The court ruled that its December 19, 2016,
judgment was final except for an accounting and therefore
triggered the 28-day mandatory deadline set forth in Rule
50(b) for renewed motions for JMOL. Id. at 289–90. The
28-day deadline fell on January 17, 2017, a week earlier
than the agreed-upon day on which Perrigo renewed its
JMO L motions. While the court recognized that it had
blessed the January 24 deadline, the court concluded that
it had lacked authority under the Federal Rules to do so.
Id. at 290–91 (citing Fed. R. Civ. P. 6(b)(2)). The court thus

Case: 17-1950

Document: 112

Page: 9

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

9

denied Perrigo’s motions for JMOL and its notice of appeal
as untimely. Id. at 292. Finally, the district court denied
Brigham’s motion for enhanced damages because it found
that Perrigo’s conduct was not egregious. Id. at 293–94.
Perrigo again moved for JMOL and noticed a second
appeal on May 19 and May 11, 2017, respectively, this time
from the district court’s April decision. Brigham then
moved to dismiss for lack of jurisdiction, arguing that Perrigo failed to timely file its JMOL motions and notice of appeal. In a single-judge order, we denied the motion.
Brigham & Women’s Hosp., Inc. v. Perrigo Co., No. 20171950, -2021, slip op. at 4 (Fed. Cir. June 21, 2017), ECF No.
33 (“Jurisdiction Decision I”). We concluded that the district court’s December 19 judgment was not final because
it did not resolve Brigham’s claim for enhanced damages.
Id. at 3. Although we observed that Perrigo could have appealed from the December 19 judgment under 28 U.S.C.
§ 1292(c), we held that Perrigo was not obliged to do so because such an appeal from a non-final judgment “is permissive, not mandatory.” Id. (quoting DNIC Brokerage Co. v.
Morrison & Dempsey Comm’cns Inc., No. 90-1389, 1991 WL
335745, at *1 (Fed. Cir. Apr. 25, 1991)). We held that
“[w]hat matters is that [Perrigo] filed a timely appeal once
all the issues were resolved by the April 24, 2017 decision.”
Id. We thus consolidated both of Perrigo’s appeals and deactivated them pending the district court’s consideration of
certain unresolved motions. Id. at 4.
Brigham moved for panel reconsideration. A threejudge panel reaffirmed our original decision. Brigham &
Women’s Hosp., Inc. v. Perrigo Co., No. 2017-1950, -2021,
slip op. at 8–9 (Fed. Cir. Aug. 2, 2017), ECF No. 38 (“Jurisdiction Decision II”).
D.
The district court then considered the pending motions
and granted JMOL of noninfringement because it concluded that Brigham failed to present sufficient evidence of

Case: 17-1950

10

Document: 112

Page: 10

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

direct infringement. Decision, 280 F. Supp. 3d at 199. Specifically, the court determined that the clinical evidence did
not demonstrate that Pepcid Complete® provided immediate relief from episodic heartburn. Id. at 202.
The district court first assessed Study 98 and Dr.
Wolfe’s related testimony concerning Figure 7, including
his contention that Figure 7 showed immediate relief
through its rapid rise in esophageal pH after administering
Pepcid Complete®. However, the court observed that Study
98 defined an episode of acid reflux as requiring esophageal
pH to go to 4 or below, but the average pH values in Figure
7 never did so. Id. at 202. And, as the study did not otherwise purport to correlate pH recordings to heartburn severity or other symptoms, the court concluded that Figure 7
did not prove that patients in the study were provided with
immediate relief. Id.
The district court next considered the symptom relief
studies. Because these studies indisputably measured a
parameter different from the claimed immediate relief—
“adequate relief” at 15 minutes, not the start of relief
within 5–10 minutes—the court determined that the symptom relief studies also did not support the infringement
verdict. Id.
Given Brigham’s proffered evidence of infringement,
the district court concluded that “no reasonable jury could
have found direct infringement and Perrigo is entitled to
judgment as a matter of law” of noninfringement with respect to claim 1. Id. It similarly followed that Brigham
could not prove direct infringement of the dependent
claims. Id. Consequently, the court vacated the jury’s
award of damages. Id. at 205. The court denied Perrigo’s
motions for JMOL of invalidity. Id. at 204–05.
Perrigo appealed from the district court’s denial of
JMOL of invalidity and its denial of Perrigo’s evidentiary
motion. Brigham cross-appealed from the court’s grant of
JMOL of noninfringement, its denial of enhanced damages,

Case: 17-1950

Document: 112

Page: 11

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

11

attorney fees, and pre-judgment interest, and its conclusion with respect to a disputed invention date.
II. DISCUSSION
A. Jurisdiction
Notwithstanding that this court has twice decided that
we have jurisdiction over Perrigo’s appeal, Brigham maintains that “[t]here is a serious question regarding this
Court’s jurisdiction to hear Perrigo’s appeal.” Cross-Appellant Br. 1–2. Brigham points to no error, however, in our
decision, and simply requests that we “assure [ourselves]
that [we have] jurisdiction to hear the appeals as presented.” Id. at 2. Presumably, Brigham refers to the timeliness issue. But our prior decisions are law of the case,
and we do not disturb them.
Under the law of the case doctrine, “when a court decides upon a rule of law, that decision should continue to
govern the same issues in subsequent stages in the same
case.” Chris tians on v. Colt Indus . Operating Corp., 486
U.S. 800, 816 (1988) (quoting Arizona v. California, 460
U.S. 605, 618 (1983)). The underlying principle of the doctrine is self-consistency. See Charles Alan Wright et al.,
18B Federal Practice & Procedure Jurisdiction § 4478 (2d
ed. 2002). “Without something like it, an adverse judicial
decision would become little more than an invitation to
take a mulligan, encouraging lawyers and litigants alike to
believe that if at first you don’t succeed, just try again.”
Entek GRB, LLC v. Stull Ranches , LLC, 840 F.3d 1239,
1240 (10th Cir. 2016) (Gorsuch, J.). As the doctrine is directed at the integrity of the judicial process, we may address the law of the case sua sponte. See United States v.
Wallace, 573 F.3d 82, 90 n.6 (1st Cir. 2009).
In two decisions, the latter by a three-judge panel, we
decided that Perrigo’s appeal in this case was timely but
deactivated it to allow the district court to resolve Perrigo’s
pending JMOL motions. Jurisdiction Decision I, slip op. at

Case: 17-1950

12

Document: 112

Page: 12

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

3; Jurisdiction Decision II, slip op. at 8–9. In accordance
with those decisions, the district court resolved those motions, resulting in the judgment now before us. Brigham
now invites us to disregard the law of the case and our prior
decisions, without articulating any reasons why we should
do so.
We decline. We depart from the law of the case only in
“extraordinary circumstances such as where the initial decision was ‘clearly erroneous and would work a manifest
injustice.’” Christianson, 486 U.S. at 817 (quoting Arizona,
460 U.S. at 618 n.8). No such circumstances are evident
here. The prior panel concluded that the district court’s
December 19 judgment was not a final judgment because
it did not resolve the issue of enhanced damages, and that
Perrigo’s appeal from that judgment was therefore interlocutory. Jurisdiction Decision II, slip op. at 4–5. While an
aggrieved party may appeal under 28 U.S.C. § 1292(c)(2)
from a district court’s judgment that does not fully resolve
damages, Robert Bosch, LLC v. Pylon Mfg. Corp., 719 F.3d
1305, 1309 (Fed. Cir. 2013) (en banc), the panel held that
an appeal from such a judgment was permissive, not mandatory. Jurisdiction Decision II, slip op. at 8 (citing DNIC,
1991 WL 335745, at *1); see Jurisdiction Decision I, slip op.
at 3. In DNIC, we encountered a situation similar to the
one here—an untimely appeal from a judgment not specifying damages, but a timely appeal from a later judgment
that did specify damages. 1991 WL 335745, at *1. There,
we permitted the appeal as to issues from both the earlier
and later judgments. Id. at *2. We see no clear error or
manifest injustice in the prior panel’s consistent holding
here.
As Brigham has alleged no extraordinary circumstances warranting departure from the law of the case, we
conclude that we have jurisdiction over these appeals under 28 U.S.C. § 1295(a)(1). We therefore proceed to the

Case: 17-1950

Document: 112

Page: 13

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

13

merits. We decide only the question regarding infringement. 1
B. Infringement
We review the district court’s grant of JMOL of noninfringement under First Circuit law. “In assessing the sufficiency of the evidence, we consider whether, viewing the
evidence in the light most favorable to the verdict, a rational jury could find in favor of the party who prevailed.”
Soto-Lebron v. Fed. Express Corp., 538 F.3d 45, 56 (1st Cir.
2008). JMO L is warranted when the prevailing party’s
case contained no legally sufficient evidentiary basis for a
reasonable jury to find for that party. Id.; Fed. R. Civ. P.
50(a)(1). We review the court’s grant of JMO L de novo.
Soto-Lebron, 538 F.3d at 56.
At trial, Brigham alleged only literal infringement.
Literal infringement is a question of fact and requires
every limitation in the claim to be found in the accused

Under Cardinal Chemical Co. v. Morton Int’l, Inc.,
508 U.S. 83 (1993), a judgment of noninfringement does not
moot a counterclaim of invalidity. However, “we retain the
discretion to limit the grounds upon which appeals are decided.” Meds. Co. v. Mylan, Inc., 853 F.3d 1296, 1302 n.1
(Fed. Cir. 2017) (affirming judgment of noninfringement
and not reaching issues of validity). Given the facts here,
we decline to reach the issues of validity. Perrigo agrees
that affirming noninfringement would make it unnecessary to review the patent’s validity. Reply Br. 3. And while
we recognize the “strong public interest” in resolving questions of patent validity, Cardinal Chem., 508 U.S. at 100,
that interest here is minimal because the ’137 patent has
expired and cannot be asserted against others, there are no
pending suits involving the patent, and there are no related
patents in examination at the U.S. Patent and Trademark
Office.
1

Case: 17-1950

14

Document: 112

Page: 14

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

product. Akzo Nobel Coatings, Inc. v. Dow Chem. Co., 811
F.3d 1334, 1339, 1341 (Fed. Cir. 2016). “If even one limitation is missing or not met as claimed, there is no literal
infringement.” Mas-Hamilt on Grp. v. LaGard, Inc., 156
F.3d 1206, 1211 (Fed. Cir. 1998). The patentee has the burden of proving literal infringement by a preponderance of
the evidence. Enercon GmbH v. Int’l Trade Comm’n, 151
F.3d 1376, 1384 (Fed. Cir. 1998).
Brigham argues that the district court erred in overturning the jury verdict and granting JM OL of noninfringement.
According to Brigham, the court
misinterpreted Figure 7 and improperly dismissed the
other studies. Based on the totality of the evidence presented, Brigham asserts that a reasonable jury could have
found infringement.
Perrigo responds that the district court properly
granted JMOL of noninfringement because none of the evidence presented to the jury demonstrated immediate and
sustained relief as claimed in the ’137 patent.
We agree with Perrigo that the district court’s JMOL
of noninfringement was proper. The parties’ dispute centers on whether the evidence at trial was sufficient to show
that Pepcid Complete®, and by implication Perrigo’s generic product, provides “immediate . . . relief from pain,
discomfort and/or symptoms associated with episodic
heartburn.” ’137 patent col. 7 ll. 23–25. The district court’s
construction of this term is undisputed: immediate relief
means “relief obtained from pain, discomfort and/or symptoms associated with episodic heartburn which starts
within about 5–10 minutes following ingestion of the active
ingredients.” J.A. 1380–82; Decision, 280 F. Supp. 3d at
200. As we discuss, Brigham’s evidence was insufficient to
show immediate relief as claimed, and no reasonable jury
could have found otherwise.
Brigham’s infringement case relied primarily on the
clinical studies 98, 110, and 127 reported in the NDA for

Case: 17-1950

Document: 112

Page: 15

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

15

Pepcid Complete®. Like the district court, we begin with
Figure 7 of Study 98, reproduced earlier. Figure 7 depicts
mean esophageal pH before and after Pepcid Complete® or
a control drug is administered to a set of patients. The sole
heartburn symptom related to esophageal pH measured in
the study was acidic reflux, and “[a]n episode of acidic reflux was counted as a drop from pH 5 or more to 4 or below.”
J.A. 7044. None of the curves at any point in Figure 7 depict a mean pH below 4. Nor does the study disclose individual esophageal pH data.
Because Study 98 defined an episode of acidic reflux as
requiring a drop in pH to below 4, but the pH curves in
Figure 7 never drop below 4, the district court concluded
that Figure 7 could not prove that the patients in Study 98
taking Pepcid Complete® were provided with immediate relief from episodic heartburn within 5–10 minutes. Decision, 280 F. Supp. 3d at 202. We agree. While Figure 7
does show a rapid rise in esophageal pH after administering Pepcid Complete®, that rise is untethered to any symptomatic relief. It cannot support the jury verdict that
Pepcid Complete® provides immediate relief from episodic
heartburn within 5–10 minutes. At most, the study suggests that Pepcid Complete® might provide immediate and
sustained relief; such speculative data, however, cannot
sustain Brigham’s burden of proof.
Brigham argues that S tudy 98’s definition of an episode of acidic reflux only applies to a prior table showing
the number and duration of esophageal reflux episodes, not
to Figure 7. Implicit in Brigham’s argument is the notion
that the investigators defined an episode of acidic reflux in
different ways within the same study. Brigham cites no
evidence in support of that reading. Moreover, the general
definition of an episode of acidic reflux offered in Study 98
does not refer to any particular data or figure, and the
study contains no alternative definition. Thus, no reasonable jury could have interpreted the study according to
Brigham’s newly presented reading.

Case: 17-1950

16

Document: 112

Page: 16

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

Brigham also emphasizes that Figure 7 involved patients who generally experienced heartburn. This may be
true but it is irrelevant to whether Figure 7 demonstrated
immediate relief from heartburn symptoms within 5–10
minutes. The fact that the patients in Study 98 experienced heartburn at some time does not support a finding
that the rise in esophageal pH shown in Figure 7 demonstrated the claimed immediate relief.
We next consider Studies 110 and 127, which did report
symptomatic relief from heartburn. However, the district
court concluded that these studies could not support the
infringement verdict because they each measured “adequate relief” beginning at 15 minutes, not immediate relief
starting within 5–10 minutes as claimed. Decision, 280 F.
Supp. 3d at 202. There is no dispute that adequate relief
first measured at 15 minutes after administration is a parameter different from relief starting 5–10 minutes after
administration. Dr. Wolfe testified as such. J.A. 7846
(“[I]t’s onset versus – this is adequate relief. Different parameters.”). As Studies 110 and 127 did not measure the
result that Brigham claimed in the ’137 patent, we agree
with the district court that they do not support the jury
verdict.
On appeal, Brigham argues that the evidence of adequate relief at 15 minutes necessarily showed onset of relief within 5–10 minutes. But at most, Dr. Wolfe’s
testimony only indicated that the measured parameter
would “correlate to” the claimed result. J.A. 7847 (“‘15
minutes would be in the five or ten, around that time.’ So
that would correlate to immediate relief.”). Data merely
correlating to the claimed limitation does not suffice to
prove literal infringement. As Dr. Wolfe testified regarding the data on adequate relief at 30 minutes, “[w]e have
no idea” how many patients in Studies 110 and 127 were
provided relief starting within 5–10 minutes because that
result was not measured or even estimated in either study.
J.A. 7791. “Although a jury is entitled to draw reasonable

Case: 17-1950

Document: 112

Page: 17

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

17

inferences from circumstantial evidence, reasonable inferences themselves must be more than speculation and conjecture.” Phillip M. Adams & Assocs., LLC v. Dell Comput.
Corp., 519 F. App’x 998, 1004 n.10 (Fed. Cir. 2013) (quoting
Sunw ard Corp. v. Dun & Bradstreet, Inc., 811 F.2d 511,
521 (10th Cir. 1987)); see Welch v. Ciampa, 542 F.3d 927,
935 (1st Cir. 2008) (“Although we give the nonmoving party
the benefit of all reasonable inferences, a party cannot rest
on ‘conclusory allegations, improbable inferences, [or] unsupported speculation’ to defeat a motion for summary
judgment.” (alteration in original) (quoting McCarthy v.
Northwest Airlines, Inc., 56 F.3d 313, 315 (1st Cir. 1995))).
Because only speculation supports Brigham’s contention
that data showing adequate relief at 15 minutes implies
that relief started within 5–10 minutes, it cannot sustain
the jury verdict.
Brigham also points to other evidence purportedly
showing that Pepcid Complete® provided the claimed immediate relief—that antacids were conventionally known
to act quickly, and that the NDA stated that Pepcid Complete® worked as quickly as an antacid. However, none of
this evidence indicates that Pepcid Complete® provides immediate relief within 5–10 minutes as claimed. It therefore
cannot support the infringement verdict.
Last, we consider the bare assertion by Dr. Wolfe, the
inventor of the ’137 patent, that he ingested Perrigo’s product after litigation began, and that it provided immediate
relief as claimed. J.A. 7760 (“Q. And you have no direct
evidence that Perrigo’s generic product provides immediate
relief within five to ten minutes, correct? A. Well, yeah. I
took it myself, and it does.”); J.A. 7758. Considering the
absence of any clinical data demonstrating the claimed immediate relief, we conclude that this uncorroborated, conclusory, and interested testimony is insufficient to carry
Brigham’s burden of proof and to sustain the jury verdict.
See Medtronic Inc. v. Boston Sci. Corp., 558 F. App’x 998,
1000 (Fed. Cir. 2014) (“The district court correctly noted

Case: 17-1950

18

Document: 112

Page: 18

Filed: 02/28/2019

BRIGHAM AND WOMEN'S HOSPITAL v. PERRIGO COMPANY

that conclusory statements are insufficient to support a
verdict finding infringement under the doctrine of equivalents . . . .”); cf. McKeown v. Bayshore Concrete Prods.
Corp., 34 F. App’x 741, 743 (Fed. Cir. 2002) (“[U]nsupported, conclusory statements on the ultimate issue of infringement are wholly insufficient to raise a genuine
evidentiary dispute for trial.”).
Having considered the totality of the evidence, we
agree with the district court that Brigham failed as a matter of law to prove that Perrigo’s product meets the claimed
limitation of providing immediate relief from episodic
heartburn within 5–10 minutes. Because each asserted
claim contains this limitation, the court did not err in concluding that the infringement verdict and damages award
could not stand.
CONCLUSION
We have considered Brigham’s remaining arguments
but find them unpersuasive. For the foregoing reasons, we
affirm the judgment of the district court.
AFFIRMED

Appendix B

Case: 17-1950

Document: 116

Page: 1

Filed: 05/02/2019

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

BRIGHAM AND WOMEN'S HOSPITAL, INC.,
INVESTORS BIO-TECH, L.P.,
Plaintiffs-Cross-Appellants
v.
PERRIGO COMPANY, L. PERRIGO COMPANY,
Defendants-Appellants
______________________
2017-1950, 2017-2021, 2017-2555, 2018-1243
______________________
Appeals from the United States District Court for the
District of Massachusetts in N o. 1:13-cv-11640-RWZ,
Judge Rya W. Zobel.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, CHEN, HUGHES, and
STOLL, Circuit Judges *.

*

Circuit Judge Taranto did not participate.

Case: 17-1950

2

Document: 116

Page: 2

Filed: 05/02/2019

BRIGHAM AND WOMEN'S HOSPITAL, v. PERRIGO COMPANY

PER CURIAM.
ORDER
Cross-Appellants Brigham and Women's Hospital, Inc.
and Investors Bio-Tech, L.P. filed a combined petition for
panel rehearing and rehearing en banc. The petition was
referred to the panel that heard the appeal, and thereafter
the petition for rehearing en banc was referred to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 9, 2019.
FOR THE COURT
May 2, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Appendix C

Case: 17-1950

Document: 38

Page: 1

Filed: 08/02/2017

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

BRIGHAM AND WOMEN’S HOSPITAL, INC.,
INVESTORS BIO-TECH, L.P.,
Plaintiffs-Appellees
v.
PERRIGO COMPANY, L. PERRIGO COMPANY,
Defendants-Appellants
______________________
2017-1950, -2021
______________________
Appeals from the United States District Court for the
District of M assachusetts in No. 1:13-cv-11640-RWZ,
Judge Rya W. Zobel.
______________________
ON MOTION
______________________
Before NEWMAN, WALLACH, and STOLL, Circuit Judges.
WALLACH, Circuit Judge.
ORDER
The appellees move for panel reconsideration of this
court’s June 21, 2017 order denying the appellees’ motion
to dismiss, consolidating the above-captioned appeals, and
deactivating the appeals because of pending postjudgment motions. The appellants oppose the motion.

Case: 17-1950

2

Document: 38

Page: 2

BRIGHAM AND WOMEN’S HOSPITAL

Filed: 08/02/2017

v. PERRIGO COMPANY

I. Background
Although the June 2017 order detailed the procedural
history of these appeals, we repeat the facts essential to
resolving this motion for ease of the panel and the reader.
This is a patent infringement case in which the appellees’ complaint included a claim for enhanced damages
pursuant to 35 U.S.C. § 284. On December 14, 2016, the
jury returned a verdict in favor of the appellees on infringement and invalidity. On December 19, 2016, judgment was entered without specifying the amount of
damages that was owed by the appellants.
On January 24, 2017, the appellants moved for judgment as a matter of law (JM OL) or a new trial under
Rules 50(d) and 59(d) of the Federal Rules of Civil Procedure. The appellees moved for enhanced damages and
attorneys’ fees and opposed the appellants’ motions on the
ground that they had not been timely filed. In response,
on February 17, 2017, the appellants moved for an extension of time to file an appeal and noticed an appeal, which
was subsequently docketed as Appeal No. 2017-1950.
On April 24, 2017, the district court resolved the parties’ post-trial motions, including the appellees’ motion for
enhanced damages. As to the appellants’ motions, the
district court agreed with the appellees that the motions
had not been timely filed because they were filed more
than 28 days after the judgment. The district court also
denied the appellants’ motion to extend time to file an
appeal from the December 2016 judgment. On M ay 11,
2017, the appellants filed an amended notice of appeal,
which was docketed as Appeal No. 2017-2021.
The appellees moved to dismiss Appeal No. 1950 and
to limit the issues in Appeal No. 2017-2021, arguing that
the appellants could not seek review of the underlying
infringement and invalidity determinations. They contended that the appellants failed to file a timely appeal

Case: 17-1950

Document: 38

BRIGHAM AND WOMEN’S HOSPITAL

Page: 3

Filed: 08/02/2017

v. PERRIGO COMPANY

3

from the December 2016 judgment and also failed to file
timely motions that would toll the time to appeal.
On June 21, 2017, this court issued a single-judge order denying that motion. The order explained that the
December 2016 judgment was not a final judgment because the enhanced damages claim remained unresolved.
The order further explained that while the appellants
could have appealed the judgment as an interlocutory
appeal because it was final “except for an accounting,” the
appellants’ failure to do so did not preclude review of the
liability issues after entry of final judgment.
Because there were pending motions that challenged
the judgment on appeal, the court deactivated the case
until the district court resolved those motions.
II. This Court’s June 21, 2017 Order Was Not Procedurally Improper as a Single-Judge Decision
Rule 27(c) of the Federal Rules of Appellate Procedure
provides that a single judge “may not dismiss or otherwise
determine an appeal.” An order denying a motion to
dismiss and allowing an appeal to ultimately proceed to
the merits panel clearly does not fall into one of those
categories. See, e.g ., Fieldturf, Inc. v. Sw. Recreational
Indus., Inc., 357 F.3d 1266, 1268 (Fed. Cir. 2004) (citing
Fed. R. App. P. 27(c) and Nilssen v. Motorola, Inc., 203
F.3d 782, 785 n.2 (Fed. Cir. 2000)); Fort James Corp. v.
Solo Cup Co., 412 F.3d 1340, 1345–46 (Fed. Cir. 2005).
The Advisory Committee Notes do not suggest otherwise.
They state that a single judge may “entertain and act
upon any motion other than a motion to dismiss or otherwise determine an appeal or other proceeding.” Here, the
June 21, 2017 did not “act upon” the motion in the relevant sense in that it did not dismiss the appeal.

Case: 17-1950

4

Document: 38

Page: 4

BRIGHAM AND WOMEN’S HOSPITAL

Filed: 08/02/2017

v. PERRIGO COMPANY

III. The December 2016 Judgment Was Not a Final
Judgment Ending the Litigation on the Merits
While “the court may review the action of a single
judge,” Fed. R. App. P. 27(c), the appellees also fail to
provide any basis to question the prior order’s conclusion.
The appellees argue that the December judgment
“end[ed] the litigation on the merits,” Mot. at 7, and thus
the appellants are entirely precluded from seeking review
of the liability issues because they failed to file a notice of
appeal within 30 days from the entry of that judgment
and failed to file a timely motion that would toll the clock
from running. They contend that “the District Court and
the parties intended the December Judgment to be a final
judgment” and that “[g]iven the District Court’s clear
intent, finality would not be affected even if the District
Court failed to expressly rule on all of [the appellees’]
claims.” Id. The appellees further argue that “the fact
that [the appellees] could bring a post-verdict request to
‘enhance’ the damages award does not impact the finality
of a judgment that resolves liability and damages.” Id.
Section 1295(a)(1) of the title 28 authorizes this court
to review “final decisions” of the district courts,” those
that “end[] the litigation on the merits and leave[] nothing
for the court to do but execute judgment.” Catlin v.
United States, 324 U.S. 229, 233 (1945) (citation omitted).
A “final decision” within the meaning of section 1295(a)(1)
is one where the district court has resolved all damages
issues. See Mendenhall v. Barber-Greene Co., 26 F.3d
1573, 1581 (Fed. Cir. 1994) (“A judgment on an appeal
under § 1292(c)(2) allowing interlocutory appeals of
liability judgments in patent cases does not end the
litigation.”); see also Calderon v. GEICO Gen. Ins. Co.,
754 F.3d 201, 204–06 (4th Cir. 2014) (holding no final
judgment where damages were not fixed because the
assessment of damages is part of the merits of the claim);
Ariz. State Carpenters Pension Tr. Fund v. Miller, 938

Case: 17-1950

Document: 38

BRIGHAM AND WOMEN’S HOSPITAL

Page: 5

Filed: 08/02/2017

v. PERRIGO COMPANY

5

F.2d 1038, 1040 (9th Cir. 1991) (noting that there was no
final judgment where punitive damages count was unresolved because the “punitive damages count and [the]
compensatory damage counts are ‘inextricably intertwined’”).
Contrary to the appellees’ arguments, enhanced damages are not collateral to the judgment akin to attorney
fees. The source of authority to award damages is the
same source of authority that authorizes enhanced damages. See 35 U.S.C. § 284 (“Upon finding for the claimant
the court shall award the claimant damages adequate to
compensate for the infringement . . . . When the damages
are not found by a jury, the court shall assess them. In
either event, the court may increase the damages up to
three times the amount found or assessed.”). M oreover,
the resolution of a claim for enhanced damages in favor of
the patentee, unlike a pending matter of attorney fees,
has the effect of altering or amending the judgment. We
have accordingly treated enhancement as part of the
accounting of damages. See PODS, Inc. v. Porta Stor,
Inc., 484 F.3d 1359, 1365 n.4 (Fed. Cir. 2007).
The appellees cite Pyle Nat. Co. v. Lewin, 92 F.2d 628,
629 (7th Cir. 1937) in support of a “long-standing” contrary rule. If anything, however, that case confirms, rather
than undermines, the conclusion that enhancements are
part of the merits of the case. In Pyle, the defendants
appealed from the trial court’s order determining that the
patents were valid and that treble damages should be
awarded before conducting accounting of the profits and
damages. In other words, the defendants were appealing
from an interlocutory decision that was “final except for
an accounting,” § 1292(c)(2), not one that “end[ed] the
litigation.” Mendenhall, 26 F.3d at 1580.
In Pyle, the Seventh Circuit merely held that the appropriate procedure was for the trial court to determine
the issue of enhancement “in connection with the account-

Case: 17-1950

6

Document: 38

Page: 6

BRIGHAM AND WOMEN’S HOSPITAL

Filed: 08/02/2017

v. PERRIGO COMPANY

ing [of damages] and not before.” 92 F.2d at 632; see also
id. at 631–32 (“We are of the opinion that such increase
should not be allowed until after an accounting has been
had. This evidently is what this Court had in mind in
Pollock v. Martin Gaug e Co., 261 F. 201, on page 202,
where it is said: ‘But whether damages in excess of the
compensatory damages shall be awarded, as well as the
amount thereof, must be determined by the District Court
upon the accounting.’”). It does not suggest, let alone
hold, that enhancements are collateral to the judgment.
The appellees contend that the district court and the
parties’ intentions with respect to finality should be
treated as “controlling” even if the enhancement claim
remained pending. Mot. at. 7. According to the appellees,
“[i]f a district court intends to enter a final judgment but
overlooks or fails to address all issues in the action, the
finality of the judgment is not affected. Rather, it is the
obligation of the parties to file a timely post-trial motion
or Notice of Appeal to correct that error.” M ot. at. 9–10
(emphasis omitted). In support of their contention that
the district court and the parties all intended for the
December judgment to resolve all merits in the case, the
appellees note the district court initially closed the case
and the parties referred to the judgment as final. Id. at.
11.
The appellees’ argument fundamentally misunderstands the final judgment rule and this court’s own “special obligation” to ensure that it has jurisdiction over a
case. Bender v. Williamsport Area Sch. Dist., 475 U.S.
534, 541 (1986); cf. Workman v. Bredesen, 486 F.3d 896,
904 (6th Cir. 2007) (“While we generally do not have
jurisdiction to review temporary restraining orders, our
jurisdiction is not controlled by the name that a claimant
attaches to a motion or the name that a district court
attaches to an order. Rather than looking to the label
attached by the trial court, we look[ ] to the nature of the
order and the substance of the proceeding below to deter-

Case: 17-1950

Document: 38

BRIGHAM AND WOMEN’S HOSPITAL

Page: 7

Filed: 08/02/2017

v. PERRIGO COMPANY

7

mine whether the rationale for denying appeal applies.”
(citation and internal quotation marks omitted)).
In any event, the record belies the notion that the district court and the parties treated the December judgment
as anything other than “final except for an accounting.”
The district court characterized the order in those terms.
See District Court’s April 24, 2017 Order at 5 (“Therefore,
the only matter that remains outstanding is the issue of
enhanced damages. [ ] The Federal Circuit, however, has
exclusive jurisdiction over an appeal “of an appeal from a
judgment in a civil action for patent infringement which
would otherwise be appealable to the [Federal Circuit]
and is otherwise final except for an accounting.”). Moreover, the appellees themselves did not treat the case as if
the litigation had ended on the merits, as they soon
thereafter asked the court to award enhanced damages.
The appellees cite in support Moreau v. Harris County, 158 F.3d 241 (5th Cir. 1998), Cox v. United States, 783
F.3d 145 (2d Cir. 2015), and Pandrol USA, LP v. Airboss
Railway Products, Inc., 320 F.3d 1354 (Fed. Cir. 2003);
these cases are easily distinguishable. In each case, the
district court actually disposed of all claims in the case.
In Moreau, the appellant had abandoned the only claim
that was not expressly addressed by the district court.
158 F.3d at 244. In Cox, the district court expressly
dismissed all claims although its reasoning was incorrect
as to some of the claims. 783 F.3d at 147–48. And in
Pandrol, the district court found that the defendants had
effectively waived their counterclaims. 320 F.3d at 1362.
This case clearly differs from Cox, Moreau, and Pandrol.
Unlike in Moreau and Pandrol, the appellees here did not
abandon or waive their enhanced damages claims. To the
contrary, they pressed their claims before and after the
December 2016 judgment. And unlike Moreau, Cox, and
Pandrol, the district court here did not express any indication that it had finally resolved all damages issues.

Case: 17-1950

8

Document: 38

Page: 8

BRIGHAM AND WOMEN’S HOSPITAL

Filed: 08/02/2017

v. PERRIGO COMPANY

IV. Failure to Timely File an Interlocutory Appeal
Does Not Preclude Review of Liability Issues after
Entry of a Final Judgment
The confusion here appears to stem from the fact that
the appellants initially tried but failed to file a timely
interlocutory appeal under § 1292(c)(2). That, however,
does not alter the fact that the appellants still are allowed
to seek review of such determinations once a final judgment in the case has been entered.
It is well established as a general rule that parties are
allowed to wait for a final judgment to raise all claims of
error in a single appeal even though interlocutory appeal
was permitted. See Brownlee v. DynCorp., 349 F.3d 1343,
1348–49 (Fed. Cir. 2003) (citing 16 Charles Alan Wright
et al., Federal Practice and Procedure § 3921, at 20 n.27
(2d ed. 1996) and cases from other courts).
That rule applies with equal force to situations where
a party could have appealed under § 1292(c)(2). See DNIC
Brokerage Co. v. Morrison & Dempsey Comm’cns Inc., No.
90-1389, 1991 WL 335745, at *1 (Fed. Cir. Apr. 25, 1991);
see also Bing ham Pump Co. v. Edwards, 118 F.2d 338,
339 (9th Cir. 1941) (rejecting “suggestion that the question as to the validity of the patent is not open because of
a failure to appeal from the interlocutory decree as permitted by” the predecessor statute of § 1292(c)(2)).
We see no reason to treat an appellant who initially
tried but failed to file a timely permissive interlocutory
appeal differently than one who simply waited until final
judgment to raise all claims of error in one appeal.
V. The Appeals are Deactivated, Not Remanded
The appellees mischaracterize this court’s June 21,
2017 order as having remanded the case back to the
district court; the order did no such thing. The appellants
informed this court that at the district court they had
filed motions listed under Rule 4(a)(4) of the Federal

Case: 17-1950

Document: 38

BRIGHAM AND WOMEN’S HOSPITAL

Page: 9

Filed: 08/02/2017

v. PERRIGO COMPANY

9

Rules of Appellate Procedure within 28 days from the
date the district court issued its April 24, 2017 order, and
currently the motion remains pending. Per the court’s
usual practice, these appeals were deactivated, as such
motions ordinarily render an appeal from a final judgment premature until the motions are acted upon. The
court rendered no judgment on the merits of the arguments raised in that motion.
Accordingly,
IT IS ORDERED THAT:
The motion is denied.
FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
s31

